No. 20-1279
IN THE

ibu,prente Court of tbe Ettiteb *Otto
ANGELICA CASTANON, et al.,
Appellants,
v.
UNITED STATES OF AMERICA, et al.,
Appellees.

On Appeal from the United States District Court
for the District of Columbia

BRIEF AMICI CURIAE OF DISTRICT OF
COLUMBIA HISTORIANS IN SUPPORT OF
APPELLANTS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,962 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 14, 2021.

/
Colin Case
ogan
Wilson-Epes Printing Co., Inc.

